APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of District Court of Appeal of the State of
Florida Denying Petition for Writ of Certiorari
(November 20, 2019)............................................. la
Order of District Court of Appeal of the State of
Florida Denying Motion to Reverse Strike
(November 7, 2019)............................................... 2a
Order of District Court of Appeal of the State of
Florida for Filing Petition for Writ
(October 14, 2019)................................................. 4a
Mandate from the Circuit Court of the Fifteenth
Judicial Circuit of Palm Beach County
(October 1, 2019)................................................... 5a
Opinion of the Circuit Court of the Fifteenth
Judicial Circuit in and for Palm Beach County,
Florida (September 17, 2019).............................. 7a
Final Judgment of the County Court of the
Fifteenth Judicial Circuit in and for Palm
Beach County (May 18, 2018)............................. 9a
Order of the County Court of the Fifteenth
Judicial Circuit Denying Defendant’s Motion
to Continue (May 4, 2018)................................... 14a
Order on Citations of the County Court of the
Fifteenth Judicial Circuit Court in and for
Palm County (August 17, 2017)......................... 16a
Statutory Provisions
Relevant Statutory Provisions..............

19a

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Motion to Remove Label of Animal Cruelty and
Response to Expert Specialty Visit
(May 14, 2018).................................................. 27a
Motion to Visit Pets Filed in the County Circuit
Court of the Fifteenth Circuit
(April 27, 2018)................................................. 34a
Defendant’s Motion to Prohibit Filed in the County
Circuit Court of the Fifteenth Circuit
(April 23, 2018)................................................. 36a
Defendant’s Motion to Visit Pets
(April 23, 2018)................................................. 38a
Initial Brief of Appellant
(March 11, 2019)........................................... 40a

App.la
ORDER OF DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA DENYING
PETITION FOR WRIT OF CERTIORARI
(NOVEMBER 20, 2019)
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA, FOURTH DISTRICT
KAREN BISHOP
v.
PALM BEACH COUNTY.
Case Number: 4D19-3152
Lower Tribunal Case(s): 502018CC004603
Civil Certiorari Petition from Palm Beach County
ORDERED that the petition for writ of certiorari
is denied.
WARNER, GROSS and CONNER, JJ., concur

App.2a
ORDER OF DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA DENYING
MOTION TO REVERSE STRIKE
(NOVEMBER 7, 2019)
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT,
110 SOUTH TAMARIND AVENUE,
WEST PALM BEACH, FL 33401
KAREN BISHOP,
Appellan t/Petitioner(s),
v.
PALM BEACH COUNTY,
Appellee/Responden t(s).
Case No.: 4D19-3152
L.T. No.: 502018CC004603
BY ORDER OF THE COURT:
ORDERED that Petitioner’s November 4, 2019
“Motion to Reverse Strike” is denied. Within five (5)
days of service of this order, Petitioner shall file an
appendix sufficient to review the issue presented as
required by Florida Rule of Appellate Procedure 9.100
(g). The appendix must contain a copy of the circuit
court’s appellate decision, the record on appeal, and
all briefs and appendices filed in the appeal to the

App.3a

circuit court. Failure to timely comply with this order
will result in dismissal of this proceeding.

Is/ Lonn Weissblum
Clerk, Fourth District Court of Appeal

App.4a
ORDER OF DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA FOR
FILING PETITION FOR WRIT
(OCTOBER 14, 2019)
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT,
110 SOUTH TAMARIND AVENUE,
WEST PALM BEACH, FL 33401
KAREN BISHOP
Appellant/Petitioner(s),
v.
PALM BEACH COUNTY,
Appellee/Respon den t(s).
Case No.: 4D19-3152
L.T. No.: 502018CC004603
BY ORDER OF THE COURT:
ORDERED that the Notice of Appeal filed in the
Circuit Court is treated as a Petition for Writ of Certio­
rari. Petitioner shall file a petition and appendix in com­
pliance with Florida Rule of Appellate Procedure 9.100
within twenty (20) days from the date of this order.
/s/ Lonn Weissblum
Clerk, Fourth District Court of Appeal

App.5a
MANDATE FROM THE CIRCUIT COURT
OF THE FIFTEENTH JUDICIAL CIRCUIT
OF PALM BEACH COUNTY
(OCTOBER 1, 2019)
CIRCUIT COURT OF THE FIFTEENTH
JUDICIAL CIRCUIT IN AND FOR PALM BEACH
COUNTY, FLORIDA, APPELLATE DIVISION
KAREN BISHOP,
v.
PALM BEACH COUNTY.
Circuit Appeal Case No.:
502018AP000062CAXXMB AY
This cause having been brought to this Court by
appeal, and after due consideration the Court having
issued its opinion;
YOU ARE HEREBY COMMANDED that such
further proceedings be had in said Cause in accordance
with the opinion of this Court, and with the rules of
procedure and Laws of the State of Florida.
WITNESS THE HONORABLE Judge, JAMES
MARTZ Presiding Judge of the Appellate Division
(Civil) of the Fifteenth Judicial Circuit and seal of
the said Court at West Palm Beach, Florida on this day
Tuesday, October 1, 2019.

App.6a

SHARON R. BOCK,
CLERK & COMPTROLLER
Palm/Beach County, Florida

By: Is/ Catherine Markisen
Deputy Clerk

cc:

Karen Bishop
canyonforest@yahoo.com
canyonforest@gmail.com
Shannon Fox, Esq.
sxfox@pbcgov.org

App.7a
OPINION OF THE CIRCUIT COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT IN AND FOR
PALM BEACH COUNTY, FLORIDA
(SEPTEMBER 17, 2019)
IN THE CIRCUIT COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT IN AND FOR
PALM BEACH COUNTY, FLORIDA,
APPELLATE CIVIL DIVISION AY
KAREN BISHOP
Appellants,
v.
PALM BEACH COUNTY,
Appellee.
Case No.: 50-2018-AP-000062-CAXX-MB
L.T. NO.: 50-2018-CC-004603-XXXX-MB
Appeal from the County Court in and for
Palm Beach County, Judge Sherri Collins
Before: MARTZ, CURLEY, and GOODMAN, JJ.
PER CURIAM.
AFFIRMED.
Martz, Curley, and Goodman, JJ., concur.

App.8a
CONCURRING OPINION OF THE JUSTICES
MARTZ, CURLEY AND GOODMAN
(SEPTEMBER 17, 2019)
Affirmed/Reversed/Other: Affirmed
Per Curiam Opinion/Decision by: Per Curiam
CONCURRING:
/s/ James Martz
Date: 9-17-19
/s/ Joseph Curley
Date: 9-17-19
Is/ Jaimie Goodman

App.9a

FINAL JUDGMENT OF THE COUNTY COURT
OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY
(MAY 18, 2018)
IN THE COUNTY COURT OF THE FIFTEENTH
JUDICIAL CIRCUIT IN AND FOR PALM BEACH
COUNTY, FLORIDA, CIVIL DIVISION RJ
PALM BEACH COUNTY,
a Political Subdivision of the State of Florida,
Petitioner,
v.
KAREN BISHOP
Respondent.
Case No.: 50-2018-CC-004603-XXXX-MB
Before: Sherri L. COLLINS, Judge.
THIS CAUSE came before the Court on May 18,
2018 on Palm Beach County’s (the “County”) Petition
for Emergency Hearing Pursuant to Florida Statute
Section 828.073 (2017), and the Court, having received
evidence, having examined the Court file, and being
otherwise advised in the premises, it is hereby
ORDERED AND ADJUDGED that:
1. On April 13, 2018, the Palm Beach County
Sheriffs Office, with the assistance of the Palm Beach

App.lOa

County Division of Animal Care and Control (the “Divi­
sion”) executed a search warrant at Karen Bishop’s
residence located at 1274 Frangipani Circle, Lantana,
Florida 33462 the “Property”). During the execution of
the warrant, seven cats, three dogs and three finches
were lawfully seized and brought to the Division for
medical care and sheltering.
2. Respondent Karen Bishop is the owner of the
animals and maintained them at the Property.
3. The evidence indicated that at the time the
animals were removed, Beatrice, a Scottish Terrier, had
labored breathing, severely crushed eyes, a bilateral
ear infection, severe hair loss and crusty inflamed
skin. Sergeant Moulton noted that Beatrice’s heavy
breathing continued throughout the time that he was
in the house and that she did not move from her bed.
4. All of the animals smelled of urine and feces
and the officers noted that urine and feces were present
on the floor throughout the house.
5. Most of the animals had fleas and most of the
cats also had ear mites, both of which are preventable
and easily treatable.
6. The house was in disrepair, especially the back
room where the ceiling tiles were missing and the
insulation was falling from the attic. The interior of
the roof showed evidence of water damage and possibly
mold.
7. Detective Hansen testified that the house had
no running water. According to the Boynton Beach
Water Utility records placed into evidence, Ms. Bishop’s
water utilities were shut off by the city on March 7,
2017, due to non-payment.

App.lla

8. During the officers’ search of the home, no
current medication or medical records were found to
indicate that any of the animals had recently received
veterinary care.
9. Based on the conditions, all animals that could
be caught were removed from the residence and
brought to the Division. Upon intake, Dr. Sayre, DVM,
examined all of the cats and dogs. Dr. Sayre testified
that Beatrice struggled for every breath, and that her
eye, ear and skin conditions were painful. Dr. Sayre
determined that Beatrice’s conditions had likely per­
sisted for months, if not years, and testified that she
saw no evidence that Ms. Bishop had treated Beatrice’s
conditions.
10. Dr. Sayre testified that all of the animals
suffered from a lack of basic care, a lack of clean
living conditions, and from overcrowding. As a result,
all of the animals suffered.
11. At the hearing, Ms. Bishop testified that she
had been out of work for two years, which hindered
her ability to care for the animals.
12. Ms. Bishop presented a veterinary record
showing that Halley, a cat, was seen by a veterinarian
on January 22, 2018, for an upper respiratory infection.
However, the other animals had not been seen by a
veterinarian in years.
13. The most concerning evidence of neglect
included Ms. Bishop’s failure to provide basic care
such as treating Beatrice’s eyes with artificial tears,
trimming Chewy’s nails and brushing Abbie’s teeth.
Such basic care would have cost Ms. Bishop very little
but would have prevented the animals from suffering.

App.l2a

14. Based upon the evidence presented, the Court
finds that Respondent failed to provide the dogs and
cats at issue with proper and reasonable care and is
unfit and unable to care for them. Therefore, the
dogs and cats identified in the County’s Petition are
awarded to the permanent custody of Palm Beach
County for an appropriate disposition.
15. At the conclusion of the hearing, Ms. Bishop
voluntarily relinquished ownership of her three finches
to the County as she did not wish to allow officers
from the County to perform inspections to ensure the
future well-being of the birds.
16. Pursuant to Section 828.073(4)(c)(3), Florida
Statutes, Respondent is enjoined from the future
possession or custody of any animal. If Respondent
wishes to possess or have custody of any animal at any
time in the future, she shall file a written request
with this Court, shall send a copy of such request to
the Division at the address provided in paragraph 17,
and shall set the matter for an evidentiary hearing.
17. Pursuant to Section 828.073(4)(c)(2), Florida
Statutes, Respondent shall pay the County the sum
of Ten Thousand Four Hundred and Four Dollars
and Twenty-Eight Cents ($10,404.28) for the housing,
medical, and miscellaneous expenses the County has
incurred to care for the animals, for which let execution
issue. Said amount shall be principal, which shall
accrue interest at the statutory interest rate of 5.72%
per annum or .000156712 per day. Payment shall be
made payable to Palm Beach County Board of County
Commissioners and shall be immediately delivered to
the following address: Palm Beach County, Division of
Animal Care and Control, c/o Director, 7100 Belvedere
Road, West Palm Beach, FL 33411.

App.l3a

18. The Court shall retain jurisdiction over this
matter to assure compliance with this Final Judgment.
DONE AND ORDERED at West Palm Beach,
Palm Beach County, Florida, on this 18th day of May,
2018.
Is/ Sherri L. Collins
Judge

App.l4a
ORDER OF THE COUNTY COURT OF THE
FIFTEENTH JUDICIAL-CIRCUIT DENYING
DEFENDANT’S MOTION TO CONTINUE
(MAY 4, 2018)
IN THE COUNTY COURT OF THE FIFTEENTH
JUDICIAL CIRCUIT IN AND FOR PALM BEACH
COUNTY, FLORIDA, CIVIL DIVISION RJ
PALM BEACH COUNTY,
Plain tiff/Petitioner,
v.
KAREN BISHOP
Defen dan t/Respon den t.
Case No.: 50-2018-CC-004603-XXXX-MB
Before: Sherri L. COLLINS, Judge.
THIS MATTER came before the Court upon
Defendant’s Motion for Continuance of hearing set for
May 18, 2018 at 10 am and this Court having consid­
ered the motion and the premises therein, is hereby
Ordered and Adjudged that the motion is DENIED.
Defendant has failed to provide good cause for why
continuance is being sought or should be granted.

App.l5a

DONE AND ORDERED, in West Palm Beach,
Palm Beach County, Florida this 4th day of May, 2018.
/s/ Sherri L. Collins
Judge

App.l6a
ORDER ON CITATIONS OF THE COUNTYCOURT
OF THE FIFTEENTH JUDICIAL CIRCUIT COURT
IN AND FOR PALM COUNTY
(AUGUST 17, 2017)
IN THE COUNTY COURT OF THE FIFTEENTH
JUDICIAL CIRCUIT IN AND FOR PALM BEACH
COUNTY, FLORIDA, DIVISION D
PALM BEACH COUNTY,
Plaintiff,
v.
KAREN BISHOP
Defendant.
Case No.: 502017C0004337AXXXSB,
502017C0004343AXXXSB,
502017C0004339AXXXSB,
502017C0004340AXXXSB
Citation#: 047160, 047161, 047779, 047780
Before: Paul DAMICO, County Court Judge.
THIS CAUSE came before the Court for a trial
on the above-cited citations on August 16, 2017.
Based on the testimony of Karen Bishop and Sergeant
Adam Moulton, I find that Ms. Bishop violated Section
31 of Palm Beach County Animal Care and Control
Ordinance 98-22, as amended (the “Ordinance”). Ms.

App.l7a

Bishop refused to allow officers from the Palm Beach
County Division of Animal Care and Control (the
“Division”) to inspect her animals and failed to provide
proof that her animals have been vaccinated against
rabies and have current Palm Beach County license
tags. At the hearing, counsel for Palm Beach County
indicated that rather than asking the Court to impose
a fine in each of the four cases, the County would
prefer to resolve the cases through an order requiring
compliance with the Ordinance. Therefore, it is hereby
ORDERED AND ADJUDGED that:
1. Ms. Bishop shall produce all of her animals
on August 17, 2017, at 10:30 A.M. The inspection shall
be performed at 1274 W. Frangipani Circle, Lantana,
Florida 33462; however, officers from the Palm Beach
County Division of Animal Care and Control (the
“Division”) shall not enter Ms. Bishop’s home, unless
invited. The purpose of the inspection shall be to
ascertain the condition of the animals, determine the
total number of animals owned or possessed by Ms.
Bishop and confirm compliance with the Ordinance.
2. If Ms. Bishop complies with this Order, upon
notice from counsel for Palm Beach County, no fines
shall be imposed in the above cited-cases, and the
Clerk of Court shall close these cases.
3. If Ms. Bishop fails to comply with the Order,
counsel for Palm Beach County may file a motion for
contempt seeking appropriate relief.
DONE AND ORDERED at Delray Beach, Palm
Beach County, Florida, on this 16 day of August, 2017.
Signed and Dated Aug 16 2017.

App.l8a

/s/ Paul Damico
County Court Judge

Copies provided to:
Karen Bishop
1274 W. Frangipani Circle
Lantana, Florida 33462
Shannon Fox, Esq.
sxfox@pbcgov. or g

App.l9a

RELEVANT STATUTORY PROVISIONS
Florida Rules of Judicial Administration, 2.516(b)(1)
(b) Service; How Made.
When service is required or permitted to be made
upon a party represented by an attorney, service must
be made upon the attorney unless service upon the
party is ordered by the court.
(l) Service bv Electronic Mail (“e-mail”). All
documents required or permitted to be served
on another party must be served by e-mail, unless
this rule otherwise provides. When, in addition
to service by e-mail, the sender also utilizes
another means of service provided for in subdi­
vision (b)(2), any differing time limits and other
provisions applicable to that other means of
service control. A filer of an electronic document
has complied with this subdivision if the Florida
Courts e-filing Portal (“Portal”) or other author­
ized electronic filing system with a supreme court
approved electronic service system (“e-Service
system”) served the document by e-mail or pro­
vided a link by e-mail to the document on a web­
site maintained by a clerk (“e-Service”). The
filer of an electronic document must verify that
the Portal or other e-Service system uses the
names and e-mail addresses provided by the
parties pursuant to subdivision (b)(1)(A).
(A) Service on Attorneys. Upon appearing in a
proceeding, an attorney must serve a desig­
nation of a primary e-mail address and may
designate no more than two secondary e-mail

App.20a
addresses and is responsible for the accuracy
of and changes to that attorney’s own e-mail
addresses maintained by the Portal or other
e-Service system. Thereafter, service must
be directed to all designated e-mail addresses
in that proceeding. Every document filed or
served by an attorney thereafter must include
the primary e-mail address of that attorney
and any secondary e-mail addresses. If an
attorney does not designate any e-mail
address for service, documents may be served
on that attorney at the e-mail address on
record with The Florida Bar.
(B) Exception to E-mail Service on Attorneys.
Service by an attorney on another attorney
must be made by e-mail unless excused by the
court. Upon motion by an attorney demon­
strating that the attorney has no e-mail
account and lacks access to the Internet at
the attorney’s office, the court may excuse the
attorney from the requirements of e-mail ser­
vice. Service on and by an attorney excused
by the court from e-mail service must be by
the means provided in subdivision (b)(2) of
this rule.
(C) Service on and bv Parties Not Represented
by an Attorney. Any party not represented
by an attorney may serve a designation of a
primary e-mail address and also may desig­
nate no more than two secondary e-mail
addresses to which service must be directed
in that proceeding by the means provided in
subdivision (b)(l) of this rule. If a party not
represented by an attorney does not designate

App.21a

an e-mail address for service in a proceeding,
service on and by that party must be by the
means provided in subdivision (b)(2) of this
rule.
(D) Time of Service. Service by e-mail is complete
when it is sent.
(i)

If, however, the e-mail is sent by the
Portal or other e-Service system, service
is complete on the date the served docu­
ment is electronically filed.

(ii) If the person required to serve a docu­
ment learns that the e-mail was not
received by an intended recipient, the
person must immediately resend the
document to that intended recipient by
e-mail, or by a means authorized by sub­
division (b)(2) of this rule.
(iii) E-mail service, including e-Service, is
treated as service by mail for the compu­
tation of time.
(E) Format of E-mail for Service. Service of a
document by e-mail is made by attaching a
copy of the document in PDF format to an email sent to all addresses designated by the
attorney or party.
(i)

All documents served by e-mail must be
attached to an e-mail message contain­
ing a subject line beginning with the
words “SERVICE OF COURT DOCU­
MENT” in all capital letters, followed
by the case number of the proceeding in
which the documents are being served.

App.22a

(ii) The body of the e-mail must identify the
court in which the proceeding is pending,
the case number, the name of the initial
party on each side, the title of each docu­
ment served with that e-mail, and the
name and telephone number of the per­
son required to serve the document
(iii) Any document served by e-mail may be
signed by the “/s/” format.
(iv) Any e-mail which, together with its
attached documents, exceeds the appro­
priate size limitations specified in the
Florida Supreme Court Standards for
Electronic Access to the Court must be
divided and sent as separate e-mails, no
one of which may exceed the appropriate
size limitations specified in the Florida
Supreme Court Standards for Electronic
Access to the Court and each of which
must be sequentially numbered in the
subject line.
Florida Statute Section 828.073(2)
Animals in Distress 828.073 Animals found in dis­
tress; when agent may take charge; hearing; disposi­
tion; sale.—
(2) Any law enforcement officer, any animal con­
trol officer certified pursuant to s. 828.27, or any
agent of any county or of any society or association
for the prevention of cruelty to animals appointed
under s. 828.03 may:

App.23a

(a) Lawfully take custody of any animal found
neglected or cruelly treated by removing the
animal from its present location, or
(b) Order the owner of any animal found
neglected or cruelly treated to provide certain
care to the animal at the owner’s expense
without removal of the animal from its pre­
sent location,
and shall file a petition seeking relief under this
section in the county court of the county in
which the animal is found within 10 days after
the animal is seized or an order to provide care is
issued. The court shall schedule and commence
a hearing on the petition within 30 days after
the petition is filed to determine whether the
owner, if known, is able to adequately provide for
the animal and is fit to have custody of the animal.
The hearing shall be concluded and the court order
entered thereon within 60 days after the date the
hearing is commenced. The timeframes set forth
in this subsection are not jurisdictional. However,
if a failure to meet such timeframes is attributable
to the officer or agent, the owner is not required
to pay the officer or agent for care of the animal
during any period of delay caused by the officer
or agent. A fee may not be charged for filing the
petition. This subsection does not require court
action for taking custody and properly disposing of
stray or abandoned animals as lawfully performed
by animal control agents.
(3) The officer or agent of any county or of any
society or association for the prevention of cruelty
to animals taking charge of any animal pursuant
to the provisions of this section shall have

App.24a

written notice served, at least 3 days before the
hearing scheduled under subsection (2), upon
the owner of the animal, if he or she is known
and is residing in the county where the animal
was taken, in conformance with the provisions of
chapter 48 relating to service of process. The
sheriff of the county shall not charge a fee for
service of such notice.
(4)
(a) The officer or agent of any county or of any
society or association for the prevention of
cruelty to animals taking charge of an animal
as provided for in this section shall provide
for the animal until either: 1. The owner is
adjudged by the court to be able to provide
adequately for, and have custody of, the
animal, in which case the animal shall be
returned to the owner upon payment by the
owner for the care and provision for the ani­
mal while in the agent’s or officer’s custody;
Florida Statutes, Title VII, Evidence Chap 90, Evidence
Code, 934.03—Interception and Disclosure of Wire,
Oral, or Electronic Communications Prohibited—
(l) Except as otherwise specifically provided in
this chapter, any person who:
(c)

Intentionally discloses, or endeavors to dis­
close, to any other person the contents of
any wire, oral, or electronic communication,
knowing or having reason to know that the
information was obtained through the inter­
ception of a wire, oral, or electronic commu­
nication in violation of this subsection;

App.25a

(d) Intentionally uses, or endeavors to use, the
contents of any wire, oral, or electronic com­
munication, knowing or having reason to
know that the information was obtained
through the interception of a wire, oral, or
electronic communication in violation of this
subsection;
Florida Rules of Appellate Procedure Rule 9.110(a)
Rule 9.110—Appeal Proceedings to Review
Final Orders of Lower Tribunals and Orders
Granting New Trial in Jury and Non-Jury
Cases
(a) Applicability. This rule applies to those pro­
ceedings that
(1) invoke the appeal jurisdiction of the courts
described in rules 9.030(a)(1), (b)(1)(A), and
(c)(1)(A);
(2) seek review of administrative action described
in rules 9.030(b)(1)(C) and (c)(1)(C); and (3)
seek review of orders granting a new trial
in jury and non-jury civil and criminal cases
described in rules 9.130(a)(4) and 9.140(c)

(D(C).
Florida Rules of Appellate Procedure Rule 9.200—The
Record
(b) Transcript(s) of Proceedings
(4) If no report of the proceedings was made, or if
the transcript is unavailable, a party may pre­
pare a statement of the evidence or proceed­
ings from the best available means, including
the party’s recollection. The statement shall

App.26a

be served on all other parties, who may serve
objections or proposed amendments to it
within 10 days of service. Thereafter, the
statement and any objections or proposed
amendments shall be filed with the lower tri­
bunal for settlement and approval. As settled
and approved, the statement shall be included
by the clerk of the lower tribunal in the
record.
Florida Rules of Appellate Procedure Rule 9.420—
Filing; Service of Copies; Computation of Time
(d) Proof of Service. A certificate of service by an
attorney that complies in substance with the
requirements of Florida Rule of Judicial Admin­
istration 2.516(f) and a certificate of service by a
pro se party that complies in substance with the
appropriate form below shall be taken as prima
facie proof of service in compliance with these
rules. The certificate shall specify the party each
attorney represents.

App.27a
MOTION TO REMOVE LABEL OF ANIMAL
CRUELTY AND RESPONSE TO
EXPERT SPECIALTY VISIT
(MAY 14, 2018)
IN THE COUNTY COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT
PALM BEACH COUNTY, FLORIDA
PALM BEACH COUNTY, STATE OF FLORIDA,
Petitioner,
v.
KAREN L. BISHOP,
Respondent.
Case Number: 2018CC004603RJ
This Motion is filed today to remove the above
label of animal cruelty which is an accessible public
record case and listed in the Palm Beach County Clerk
of Court e-portal as County Civil
50-2018-CC-004603-XXXX-MB
There has been no charge of animal cruelty; there
has been no conviction of animal cruelty; Respondent
here is not capable of animal cruelty.
On April 12, 2018 Petitioners, and Palm Beach
County Animal Care and Control obtained a search
warrant through malicious procurement as evidenced

App.28a

by the number of pets listed on affidavit/search warrant
which did not correlate to the number of pets in the
home.
Petitioner’s as above seized pets and obtained
evidence through such method; thereby ensuring and
sealing that due process is omitted based on the
Amendments of the Constitution of the United States,
specifically:
Amendment IV. The right of the people to be secure
in their houses, papers, and effects, against unreason­
able searches and seizures shall not be violated and on
Warrant shall issue upon probable cause supported by
Oath or affirmation, and particularly describing the
place to be searched and the person or things to be
seized. This Amendment makes no reference to false
affidavits.
Amendment V. No person shall be held to answer
for a capitol or otherwise infamous crime, unless on
presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject to the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against oneself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use, without
just compensation. This Hearing is for the petitioners
and by the petitioners rendering any Due Process
null and void.
Amendment VI. In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public
trial, by an impartial jury, of the State and district

App.29a

wherein the crime shall have been committed, which
district shall have been previously ascertained by
law, and be informed of the nature and cause of the
accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses
in his favor; and to have the assistance of Counsel for
one’s defense. Legal protections of a court room
setting are lacking.
Amendment VII. Excessive bail shall not be
required, nor excessive fines imposed, nor cruel or
unusual punishment inflicted. It is believed that from
the process of Search and Seizure beginning on April
13, 2018 and going forward there has been a blatant
disregard of this Amendment.
Amendment IX. The enumeration in the Constitu­
tion of certain rights, shall not be construed to deny
or disparage others retained by the people. This will
include ail rights not listed extending also to my pets
and does not imply these rights can be violated.
Prior to the malicious procurement of seizure of
my pets and in July 2017 the Agency attempted to
levy fines and put obstacles in my path by contacting
Code Enforcement in the hopes of possibly declaring
my property condemned due to “refuse” or “odor”. It
is possible the intent would have been to force me to
leave my property under Code Enforcement authority.
My property has most recently been cited as “strewn
with garbage” when I do not have a shed and shed
items were placed neatly on my back sidewalk. The
intent here was possibly to portray myself as unable
to care for myself and in that event Mental Health
Services would need to be contacted; most likely this
would involve an in-depth assessment with exorbitant

App.30a

fees which is billable; and if not paid a lien could
always be attached to the property here.
The above is not uncommon and much more
common in cases of the elderly.
There are also fines, fees and court costs most
probably involved here in what Respondent believes
is an illegal search and seizure; as a matter of fact,
insurmountable barriers can and will most likely be
placed (as evidenced by the veterinary cardiology visit)
due to the high cost of per diem exacted by the Agency
exorbitant veterinary fees. Specialty examinations by
veterinary cardiologists involve specialty equipment
that on average has a cost between $45,000.00 and
$66,000.00 to purchase; in Palm Beach County the
average specialty visit is $500.00, excluding the average
specialty cardiology examination which is approximate­
ly $350.00. Veterinary cardiologists accept a substantial
amount of cash prior to specialty visit, do not accept
checks, and will accept credit cards or Americare, a
form of credit/insurance for a cardiac examination.
This translates into a violation of Amendment VIII of
the United States Constitution referencing exorbitant
fees to be paid to release the pets.
Although not law in the state of Florida, I would
ask the Court to look to the State of Washington law,
where an affirmative defense (in regard to Petitioner
accusation of animal cruelty/neglect and petition for
custody based on veterinary cardiology telephonic testi­
mony and other testimony), if established by a prepon­
derance of the evidence by Respondent, that a veteri­
nary and veterinary cardiology specialty visit was
not arranged due to economic distress beyond the
Respondents control (Washington State Legislature, RCW
16.52.207, (4)(2)(a), that affirmative defense is valid.

App.31a

It is speculated that my pet in reference is an
elderly pet who was seized. She was thrown into a
container, set out in the hot sun alongside an animal
care and control vehicle and tagged; then thrown into
a truck by a callous animal care and control volunteer
who could have cared less about my pet. This person
refused to communicate with me as to how I take
care of my pet. It was as if I was invisible.
I am the pet’s mother/owner and caretaker and
because of this dismissed due to pending DVM testi­
mony; 23 days from the date of seizure the Agency
transported my pet to a veterinary cardiologist where
my pets condition possibly or obviously changed as
evidenced by the specialist consultation. In that
event it is believed that because of the 23-day lapse
without any loving owner contact my pets condition
changed due to mistreatment following the seizure,
which placed enormous physical and emotional stress
on my pet.
It can only be imagined what my pet felt to again
be thrown into a container, put into a truck and taken
to specialty visit where she knows no one and her pet
mother is not present. She is then subjected to more
testing and was probably terrified. As a matter of fact,
pets should and do have their family members present
when sophisticated testing as Petitioner mentions is
performed.
The stress of impoundment is too much for my
pets. It is common knowledge that the seizure of
animals can result in injury and death by the Agency
who claims to be rescuing. Amendment VI of the
United States Constitution was completely disregarded
in this instance. It is also common knowledge that
once pets are seized they are subjected to disease if

App.32a

not outright abuse or death at the hands of overzealous
animal rescuers. For these reasons it is implored
that the pets be returned to their home.
I am aware of the intentional infliction of emotional
distress my pets are experiencing as I experience it
almost daily myself; from initial Search and Seizure,
or receiving a phone call from Animal Care and Control
that cats have been trapped in the neighborhood and
do they belong to me, to a refusal from the Agency to
let me know how my pets are doing, or mail from the
Criminal/Civil Court representing the Agency, to a
Hearing where Respondent here is presumed guilty
until proven innocent; and unlikely as evidenced by
Petitioner labeling, case heard in a private setting
within the control of Animal Care and Control, and
with referenced Agency acting as Judge, jury, and
executioner.
This is not Due Process as evidenced by the
Amendments of the United States Constitution cited.
The year 2017 saw an increase in animal confisca­
tion and seizures. In reality most pets are not returned
home, and Respondent grave concern is that the pets
will either be destroyed, sold for profit, or somehow
disappear. It is appealed here that my pets be returned
at Hearing and this Motion/Response is an extra­
ordinary calling. The United States Congress makes
laws, not counties, not animal care and control, not
cities, not code enforcement or dog catchers.
Respondent other grave concern beyond pets who
were seized through the above-mentioned methods
and subjected to very severe physical and emotional
stress for 35 days up to time of Hearing, is that there
is an unrestrained and autocratic use of authority by

App.33a

hired personnel representing the Agency. In countries
such as China the above is a reality and a living
nightmare and in the United States Respondent and
pets are experiencing the same.
Although the United States Constitution, specifi­
cally Amendment V. Self-Incrimination. Double Jeop­
ardy. Due Process is to ensure no depravation of life,
liberty, or property without due process of law and
nor shall private property be taken for public use,
without just compensation, it is felt that Due Process
is lacking. It is beseeched that the Court would con­
sider what is written here, and return all pets to
their rightful owner in the environment where they
are loved and comfortable residing in.
Respectfully Submitted
Is/ Karen L. Bishop
1274 Frangipani Circle
Lantana, FL 33462

Copy Furnished to
Palm Beach County Animal Care and Control
7100 Belvedere Road
West Palm Beach, FL 33411

App.34a
MOTION TO VISIT PETS FILED IN THE COUNTY
CIRCUIT COURT OF THE FIFTEENTH CIRCUIT
(APRIL 27, 2018)
IN THE COUNTY COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT
PALM BEACH COUNTY, FLORIDA
PALM BEACH COUNTY STATE OF FLORIDA,
Petitioner;
v.
KAREN L. BISHOP,
Respondent.
Case Number: 2018CC004603
This Motion is filed today by Karen L. Bishop
called the respondent to visit pets
Facts:
Pets that include 3 canines, 7 felines and 3
finches were seized by Animal Care and
Control (Agency) on April 13, 2018.
The Agency has not allowed visitation of my
pets and provides brief information.
The pets have not been seen by me, the owner
since April 13, 2018.

App.35a

The Agency is becoming more difficult in
providing any information on the pets.
On several occasions the Agency for no appar­
ent reason has disconnected my telephone
call after waiting more than one hour and
close to two hours to speak with an Agency
representative.
Therefore, permission to visit the pets as the
Court allows is requested by this Motion.
Respectfully Submitted
/s/ Karen L. Bishop
1274 Frangipani Circle
Lantana, FL 33462

Copy Furnished to
Palm Beach County Animal Care and Control
7100 Belvedere Road
West Palm Beach, FL 33411

App.36a
DEFENDANTS MOTION TO PROHIBIT
FILED IN THE COUNTY CIRCUIT COURT
OF THE FIFTEENTH CIRCUIT
(APRIL 23, 2018)
IN THE COUNTY CIRCUIT COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT
STATE OF FLORIDA,
Plaintiff,
v.
KAREN L. BISHOP
Defendant.
Case Number: 2018CC004603
Comes now Karen L. Bishop, called defendant in
a Motion to Prohibit
The actual/accidental transfer, sale, or killing of
pets
Facts;
Defendants pets were seized from the home
at 1274 Frangipani Circle, Lantana FL 33462
by Palm Beach County Animal Care and Con­
trol on April 13, 2018.
Pets remain seized by Animal Care and Con­
trol of Palm Beach County.

App.37a

Defendant known as Karen L. Bishop files
this Motion today to ensure safekeeping and
prohibition of above until pets are returned
home.
Respectfully Submitted
Is/ Karen L. Bishop
Copy Furnished to
Animal Care and Control
7100 Belvedere Road
West Palm Beach, FL 33411

App.38a
DEFENDANT’S MOTION TO VISIT PETS
(APRIL 23, 2018)
IN THE COUNTY COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT
STATE OF FLORIDA,
Plaintiff,
v.
KAREN L. BISHOP,
Defendant.
Case Number: 2018CC004603
Comes now Karen L. Bishop, called defendant in
a Motion to Visit Pets
Facts;
Defendants pets were seized from the home
at 1274 Frangipani Circle, Lantana, FL 33462
by Palm Beach County Animal Care and Con­
trol on April 13, 2018.
Pets remain seized by Animal Care and Con­
trol of Palm Beach County.
Defendant known as Karen L. Bishop files this
Motion today to see and visit with pets until returned
home.

App.39a

Respectfully Submitted

Is/ Karen L. Bishop
Copy Furnished to
Animal Care and Control
7100 Belvedere Road
West Palm Beach, FL 33411

App.40a
INITIAL BRIEF OF APPELLANT
(MARCH 11, 2019)
IN THE CIRCUIT COURT OF THE
FIFTEENTH JUDICIAL CIRCUIT IN AND FOR
PALM BEACH COUNTY, FLORIDA
KAREN BISHOP,
Appellant,
v.
PALM BEACH COUNTY,
Appellee.
Appellate Case No. 50-2018-AP-000062-CAXX-MB
County Case No. 50-2018-CC-004603-XXXX-MB
On appeal of a final order of the County Court
In And For Palm Beach County, Florida
Karen Bishop
710 Hampshire, Apt. #1
Holbrook, AZ 86025
canyonforest@yahoo.com
Pro Se Appellant
Prepared With Assistance of Counsel

App.41a

PREFACE
This Initial Brief is filed on behalf of Appellant,
KAREN BISHOP. In this brief, Appellant shall be
referred to as “Appellant” or “Ms. Bishop”.
Appellee, PALM BEACH COUNTY, shall be
referred to as “Appellee” or “Count/’.
References to the Record on Appeal are abbrevi­
ated as follows:
Record on Appeal, with citation to the appro­
priate page number.
*Citations are to the consecutive PDF page number
of the Record.

STATEMENT OF THE CASE AND FACTS
This is an appeal of a May 21, 2018 Final Judg­
ment rendered in the county court on the County’s
petition brought pursuant to section 828.073, Fla.
Stat. (2017) (“Animals found in distress”).
This Court has jurisdiction pursuant to Florida
Rule of Appellate Procedure 9.030(c)(1)(A) and section
26.012(1), Florida Statutes (2018).
A.

Petition for Emergency Hearing

On April 19, 2018, the County filed a “Petition
For Emergency Hearing Pursuant to Florida Statute
Section 828.073.” (R. 6). The County requested a hear­
ing date to determine the custody of 13 animals (dogs,
cats, and birds) allegedly in Ms. Bishop’s possession.
(R. 6).

App.42a

The County alleged that it had received numerous
complaints regarding the animals and that Ms. Bishop
had refused to allow officers access to her home. (R.
6-7). The County alleged that it had previously removed
66 animals from Ms. Bishop’s home in 2007. (R. 7).
The County stated that it had issued citations to Ms.
Bishop in May and June of 2017 and that she had
agreed to produce all her animals to demonstrate com­
pliance with the County Ordinance. The County stated
that Ms. Bishop produced two dogs and a cat and
indicated they were the only animals she owned. (R. 7).
The County stated it received a complaint on
April 11, 2018 of over 30 animals living in the home
and that it executed a search warrant on April 14,
2018 that revealed 8 cats, 3 dogs, and 3 finches. (R. 8).
The County removed the animals. (R. 8). The County
stated that the subsequent veterinarian’s examina­
tion revealed the animals to be in poor health,
including one dog in heart failure and other animals
with untreated wounds, fleas, ear mites, and broken
teeth. (R. 8).
On April 23, 2018, Ms. Bishop filed a Motion To
Visit Pets, asking to visit the pets the County had
seized. (R. 10). Also on April 23, 2018, Ms. Bishop
filed a Motion To Prohibit, in which she asked the
Court to prohibit the transfer, sale, or killing of her
pets until they were returned home. (R. ll).
B.

Response and Further Proceedings

On April 27, 2018, Ms. Bishop filed a Response to
[Petition For] Emergency Hearing. (R. 12). Ms. Bishop
recounted her version of events from 2007 when her
animals were seized, as well as her version of the
“"events of May of 2017. Ms. Bishop explained that

App.43a

much of what the Animal Care and Control Agency
had alleged was untrue.
Ms. Bishop also recounted an incident on or
about March 23, 2018 where she paid a pet sitter to
check in on her pets for a few days while she took a
trip to Washington, D.C. (R. 15). Ms. Bishop claimed
the pet sitter made a report to Animal Care and Control
after Ms. Bishop left a negative report about her to
the petsitting agency. (R. 16). Ms. Bishop said that
she had some unrepaired hurricane damage to her
house. (R. 16). Ms. Bishop stated that she takes basic
care of her pets. (R. 16). Ms. Bishop requested the
return of her pets. (R. 17).
On April 27, 2018, Ms. Bishop filed another Motion
To Visit Pets. (R. 19).
On May 4, 2018, Ms. Bishop filed a Motion To
Reschedule Hearing requesting that the hearing sched­
uled for May 18, 2018 be rescheduled for one week
later. (R. 21). The trial court entered an Order Denying
Defendant’s Motion To Reschedule Hearing the same
day. (R. 22). The court stated that Ms. Bishop had
failed to provide good cause for why the continuance
should be granted. (R. 22).
On May 9, 2018, the County filed a Request to
Take Judicial Notice. (R. 23). The County requested
that the trial court take notice of the Order On Citations
that was entered in the four separate county court
case files in which the County had proceedings against
Ms. Bishop. The particular August 16, 2017 Order
On Citations ordered that Ms. Bishop produce all her
animals on August 17, 2017 for inspection to ascertain
their condition. (R. 23-24).

App.44a

On May 14, 2018, Ms. Bishop filed a “Motion to
Remove Label of Animal Cruelty And Response to
Expert Specialty Visit” arguing that the seizure of
her pets was malicious and violated the Constitution.
(R. 28).
The trial court entered an order allowing the
veterinarian to appear by telephone at the upcoming
hearing. (R. 33).
C.

Hearing

The hearing took place as scheduled on May 18,
2018 from 10:00 AM to 1:40 PM. (R. 36). Although
there was no recording of the hearing other than the
75 minute audio recording Appellee collected for
themselves, a written log of the events is as follows:
Ms. Bishop arrived early and was handed a
packet of evidence from the opposing attorney. The
prior case finished, and Ms. Bishop was called to sit
at the table. The witness box was in front of Ms.
Bishop, more towards the left. Opposing counsel sat
to the right.
The Judge opened the Hearing and placed Ms.
Bishop under oath. The Judge asked if Ms. Bishop
had anyone with her, and Ms. Bishop replied no. The
Judge asks Ms. Bishop “how are you”, to which Ms.
Bishop replied that she was very distressed regarding
her pets, and that she there to get her pets back.
The Judge called opposing counsel Fox, who stood
up in front of the Judge, stated there were seized
animals in possession of Palm Beach County Animal
Care and Control and that animal care and control was
there seeking custody of all of Ms. Bishop’s animals.
Opposing counsel named all of Ms. Bishop’s animals

App.45a

and stated that unfortunately the dog Beatrice had
passed away. No one had previously informed Ms.
Bishop of this, and it was a great shock to her.
Opposing counsel stated that the County was seek­
ing a judgment for expenses of over $10,000. Opposing
counsel stated that Animal Care and Control has had
numerous complaints regarding Ms. Bishop. Opposing
counsel omitted the fact that the same caller had called
Animal Care and Control multiple times. Opposing
counsel stated that records from the City of Boynton
Beach which are public knowledge showed that Ms.
Bishop’s water had been shut off for nonpayment.
Ms. Bishop interrupted and told the judge she had
the water turned back on, but it continually leaked as
Ms. Bishop had a major plumbing problem that is not
easily fixed and expensive to repair. There was no
comment from the court, and this fact went ignored.
The County’s witnesses Tirella and Davis (who
provided evidence for search warrant) were en route
to the hearing, and had every intention of attending
the hearing, but they had a car accident on the way.
The trial court reviewed the packet of evidence,
and Ms. Bishop reviewed it as well. Ms. Bishop was
asked whether she objected to this evidence being
entered into the court file. Ms. Bishop made several
objections:
•

Ms. Bishop objected to photographs from April
12, 2007 which are mixed in with photographs
from April 13, 2018. The trial court overruled
the objection.

•

Ms. Bishop objected to the County’s request
for an over $10,000 judgment, as she had noth-

App.46a

ing to compare it to. The trial court overruled
the objection.
•

Ms. Bishop objected to the order entered by
Judge Damico, as this occurred over 9 months
prior. The trial court overruled the objection.

•

Ms. Bishop objected to the water shut off
records, as she did not have the knowledge if
this is confidential information or not. The
trial court overruled the objection.

•

Ms. Bishop objected to the specialty cardiac
visit, as she had nothing to compare this with.
The trial court overruled the objection.

The trial court mentioned it was aware that
several of Ms. Bishop’s animals are a lot older than
the petition for custody complaint states.
Opposing counsel Fox called the first witness, Ms.
Quinones, who was not placed under oath. Ms. Quin­
ones, in full animal care and control uniform, stated
she was called to Ms. Bishop’s house on April 12,
2007 for numerous cats. Ms. Quinones stated Ms.
Bishop’s house was in deplorable living condition. Ms.
Quinones stated Ms. Bishop surrendered the cats.
Ms. Quinones was turned and facing Ms. Bishop and
making direct eye contact and smiling. Ms. Bishop
asked Ms. Quinones what does April 12, 2007 have to
do with today? Ms. Quinones did not answer. Ms.
Bishop asked Ms. Quinones if Ms. Bishop surren­
dered her pets, why charges were dropped? Ms.
Quinones did not answer. Ms. Bishop stated she did
not have any other questions because this does not
make sense. Ms. Quinones left the witness box and
the Judge stated: “Ms. Bishop, I am not going to hold
this against you”. Ms. Bishop thanked the judge

App.47a

while Ms. Quinones, glaring at Ms. Bishop with a very
angry look, went to her seat in back of Ms. Bishop.
The next witness was Ms. Jarret, in full animal
care and control uniform. She was not placed under
oath. When questioned by opposing attorney Fox, Ms.
Jarret stated she visited Ms. Bishop’s house April 1,
2018, she received a call and talked to Ms. Bishop
about it at the time of the visit. Ms. Jarret stated it
was felt this contact by the pet sitter was due to
retaliation. Ms. Jarret stated she took pictures, and
that all Ms. Bishop’s animals seemed to be in very good
condition according to her scale. Ms. Jarret was refer­
ring to the animals Hailey, Abbie, and Chewy, who
Ms. Bishop brought outside as they were up to date
on vaccinations, except Hailey, who was a few months
behind. Ms. Jarret complained about an ammonia
smell, and stated Ms. Bishop would not allow her
into Ms. Bishop’s house. Ms. Jarret stated she checked
Cobra (might be Python, unsure) and noted there has
been a lot of past animal care and control contact.
Ms. Jarret stated she then insisted on coming inside
of Ms. Bishop’s house but Ms. Bishop would not allow
it due to Ms. Bishop’s Fourth Amendment rights. Ms.
Jarret did not cite this and this was Ms. Bishop’s
reasoning. Ms. Bishop did not bring her other pets
out, as they had not had their vaccinations; Ms. Jarret
would have cited an infraction for this.
On Ms. Bishop’s questions to Ms. Jarrett, Ms.
Bishop asked her “you know, this overpowering
ammonia that you refer to, how do you measure this
overpowering odor?” Ms. Jarrett asked “what do you
mean?” Attorney Fox got up and attempted to block
the witness from Ms. Bishop’s view and object to the
question. The judge overruled the objection. Attorney

App.48a

Fox was obstructing Ms. Bishop’s view of the witness
and blocking her very important question. Ms. Bishop
then proceeded and asked again what Ms. Jarrett
uses to measure the allegedly “overpowering” odor.
Ms. Jarrett responded: “nothing”. Ms. Bishop agreed,
nothing, and had no further questions for her.
The next witness, Sayres, DVM, was not placed
under oath. She stated on questioning by attorney
Fox that she has worked for Animal Care and Control
for over 20 years. Dr. Sayres stated that all of Ms.
Bishop’s animals were in extremely poor condition.
Abbie had flaky skin, and all “stunk like urine and
feces”. There was constant and obsessive reference to
these terms. Dr. Sayres stated the pets were exposed
to overcrowding. Dr. Sayres stated all pets “got better”
except for Beatrice, whose eyes looked terrible, her
ears, she was wheezing and “gasped for every breath”.
Dr. Sayres was making direct eye contact with Ms.
Bishop and smiling. Dr. Sayres stated that Beatrice
went to a cardiac specialty visit, and was put on some
meds. However, a few days later she passed away.
Dr. Sayres stated she examined her lungs and they
were like plastic, and must have been like that for
years. She stated Beatrice was 13 years old.
On questioning, Ms. Bishop asked Dr. Sayres if
she worked at PetSmart also. Dr. Sayres did not
answer, but she did or does, as she had vaccinated
Ms. Bishop’s dogs Beatrice and Abbie as recently as
three years ago at PetSmart. Ms. Bishop asked Dr.
Sayres what exactly was wrong with Abbie’s skin.
Dr. Sayres stated that Abbie was not being bathed,
but Ms. Bishop showed her the stickers Ms. Bishop
placed on her calendar when her dogs were bathed,
and flea repellant applied. Dr. Sayres stated Abbie

App.49a

could not possibly have been bathed. Ms. Bishop
showed Dr. Sayres the shampoo, and Dr. Sayres did
not respond.
Ms. Bishop asked Dr. Sayres what she thought
should have been done about Beatrice’s eyes, as she
stated Beatrice had not been diagnosed with dry eye
syndrome, and has never been treated. Dr. Sayres
responded, “well, there are meds, and these include
artificial tears.” Ms. Bishop showed Dr. Sayres the
vial of artificial tears. Dr. Sayres initially looked
shocked, but quickly changed her facial expression.
Ms. Bishop also showed Dr. Sayres the saline that
Ms. Bishop instilled into Beatrice’s eyes in the AM
and PM. Ms. Bishop told Dr. Sayres that in the past,
Ms. Bishop had been giving Beatrice cyclosporine eye
drops but they were very expensive and now had to
change to artificial tears. (Beatrice did not make
tears, she had not made tears since 2013; the fluid
that caused tears was backing up into her ears; her
veterinarian told Ms. Bishop that Beatrice had condi­
tions that were due to genetics).
Dr. Sayres looked again at the drops, looked at
Ms. Bishop, and smiled. Dr. Sayres stated that Ms.
Bishop could not have possibly have put drops into
Beatrice’s eyes. Ms. Bishop asked her what new medi­
cation did she give to Beatrice. Dr. Sayres stated two
cardiac medications. Ms. Bishop showed Dr. Sayres
the heart medication from Wolf Creek Ranch that
Ms. Bishop purchased for Beatrice (and also provided
to Abbie) to keep them protected from heartworm
and to strengthen Beatrice’s heart. These are natural
holistic medications, DVM formulated, and had worked
very well for Ms. Bishop in the care of her dogs. Ms.
Bishop showed Dr. Sayres the check-off system Ms.

App.50a

Bishop used for AM and PM administration of eye
drops and holistic medications. Dr. Sayres had nothing
to say and just looked at the paper.
Ms. Bishop asked Dr. Sayres what medicines Bea
was allergic to. Dr. Sayres did not know. Ms. Bishop
was shocked that Dr. Sayres would give these medica­
tions and not know how Beatrice would tolerate
them, in view of the fact Beatrice passed away 2 days
later, after the new medicine was initiated. The court
could see the look on Ms. Bishop’s face when she was
notified of these events. What is more shocking is
that Ms. Bishop was the pet owner, and no one asked
if they could do this to her dog. At this time, the
opposing lawyer Fox was standing up and attempting
to block Ms. Bishop’s view of the witness. Ms. Bishop
attempted to ask the questions she felt necessary to
ask, as Ms. Fox continued with the blocking in an effort
to intimidate Ms. Bishop. The court did not ask Ms.
Fox to refrain.
Ms. Bishop asked Dr. Sayres, in view of the
wheezing, what bronchodilator she gave to Beatrice.
Dr. Sayres did not have an answer. Ms. Bishop showed
Dr. Sayres the vial of “LungGold”, a DVM formulated
natural holistic bronchodilator, that Ms. Bishop used.
No one paid attention to it or took it when Ms. Bishop’s
animals were taken from their home.
Ms. Bishop asked Dr. Sayres when did Beatrice
go to the specialty cardiac visit. Dr. Sayres stated she
did not know, and that she was not there. Dr. Sayres
did not mention the fact that the kennel she works in
swelters to more than 122 degrees. Ms. Bishop asked
Dr. Sayres if Beatrice had an echocardiogram. Dr.
Sayres stated she did not know, and she was not
there. Ms. Bishop asked Dr. Sayres whether Beatrice

App.51a

had sedation for an echocardiogram or any tests at^
the specialty visit. Dr. Sayres stated that she did not
know, and she was not there. Ms. Bishop asked Dr.
Sayres when Beatrice died, and whether she died
naturally. Dr. Sayres stated she thought Beatrice died
Monday, May 7th, but she does not know.
Dr. Sayres could not provide any lab results for the
pets or for Beatrice, could not provide a hemoglobin
test indicating anemia from fleas, could not provide a
serum albumin which would determine hydration
and skin conditions, and could not provide a picture
of a worm or a flea. Dr. Sayres stated she is the veteri­
narian there with 20 years of experience, but repeat­
edly stated she was not there for relevant events. Dr.
Sayres smiled an evil smile. Ms. Bishop had no more
questions for Dr. Sayres.
The next witness, Detective Hansen, was not
placed under oath. Det. Hansen, in full uniform, was
introduced as the detective who “helped Adam Moulton
get a search warrant.” Det. Hansen stated Ms. Bishop’s
back porch had an open ceding with insulation hanging
down. Det. Hansen stated the environment was not
clean and the water had been turned off. Det. Hansen
stated Ms. Bishop had 4 or 3 cats (she did not remember
which) in a back room, and it was not a very nice
room. Det. Hansen stated she had contacted one of
Ms. Bishop’s veterinarians, but they did not give her
a lot of information.
Ms. Bishop asked Det. Hansen what were they
discussing when she was outside talking with the neigh­
bor next door. Det. Hansen had gone from neighbor door
to neighbor door within the neighborhood on her search
warrant day. Det. Hansen stated that she was “within
the curtilage”. Det. Hansen was not within the curti-

App.52a

lage, as Ms. Bishop told her. Det. Hansen stated the
neighbor told her Ms. Bishop had a tarp on her roof
for 10 years. Ms. Bishop saw the neighbor that Det.
Hansen was talking to. Ms. Bishop asked Det. Hansen
if she was aware that the neighbor did not live in this
area consistently, and that he was the neighbor’s son
and gone more often than not. Det. Hansen refused
to answer and refused to look at Ms. Bishop. Ms.
Bishop asked Det. Hansen whether she really believed
a tarp was on the roof for 10 years. Det. Hansen
replied yes. Ms. Bishop told Det. Hansen that the
tarp was put on by FEMA in September of 2017. Ms.
Bishop had no other questions for Det. Hansen.
The next scheduled witness, Dr. Maggie Machen
Lamy DVM, was to testify by phone. However, the court
determined there was no one to put her under oath,
therefore she could not give testimony. This seemed
odd, as no one else was put under oath except Ms.
Bishop.
The next scheduled witness, Sergeant Moulton,
was not placed under oath. Sergeant Moulton, in full
animal care and control uniform, stated on questioning
from opposing lawyer Fox that he is a specially
trained animal care and control officer, as he attended
a 40-hour class in Colorado. Sergeant Moulton stated
he has received numerous calls and complaints over
the years. Sergeant Moulton stated that he got a
complaint in April of 2017, was asked if Ms. Bishop
contacted him regarding the complaint he stated
“yes, she did”. Sergeant Moulton stated he recently
“got a tip” and while glaring at Ms. Bishop stated he
“got a search warrant”.
Sergeant Moulton stated that most people “wel­
come the help” he has to offer, but not Ms. Bishop.

App.53a

Moulton stated that Ms. Bishop is “not normal”.
Sergeant Moulton stated that on search warrant day
he saw numerous cats, running all over; stated that
Beatrice was in her pet bed but didn’t really move
when he came by her and that was not normal; and
stated there was a leaking roof in the porch area and
a bucket under the leak collecting water. Sergeant
Moulton stated “that just is not normal”. Sergeant
Moulton stated that he has been to Ms. Bishop’s house
“99 times and counting”. Sergeant Moulton stated that
Ms. Bishop is “very combative”.
On questioning, Ms. Bishop asked Sergeant
Moulton if he knew that Beatrice did not see or hear
that well. Sergeant Moulton replied that he did not
know that. Ms. Bishop asked Sergeant Moulton how
credible his tip was and did he think his witness was.
Sergeant Moulton repeated the question back and
did not answer it. Ms. Bishop again asked Sergeant
Moulton how credible did he think the tipster was,
and Moulton again repeated the question back and did
not answer it. Sergeant Moulton was stalling, and the
court interrupted Ms. Bishop’s line of questioning
stating the witness was not there, and it did not matter.
Ms. Bishop had copies of their background checks
and had questions on this and the search warrant, but
this was suppressed by the court.
Ms. Bishop asked Sergeant Moulton when did
Beatrice die. Sergeant Moulton stared into his phone
and kept looking at his phone. Sergeant Moulton
then stated that maybe it was Monday, May 7th. Ms.
Bishop asked him why he did he not tell her that
Beatrice died. Sergeant Moulton said he did not have
to tell her. Sergeant Moulton then became arrogant,
stating “Sorry about your dog ma’am” but he was

App.54a

insincere. Ms. Bishop’s last question to Sergeant
Moulton was, on search warrant day, why did Moulton
come to her and ask “where are all the cats”. Sergeant
Moulton did not answer.
Next occurred a review of evidence that Ms. Bishop
presented regarding home repairs, professional pest
control, past, present and future income; receipts, evi­
dence of financial status. Ms. Bishop was not seeing
the Lung Gold/Artificial tears entered into evidence,
or the pictures of Primo water she had obtained for her
home, or the calendar with dates marked for baths/
her personal check off system, and flea topical applica­
tion. Ms. Bishop presented evidence of lams pet food,
topical flea applicant, shampoo, and Heart Worm
Formula and diatomaceous earth dust for application
to the house (natural pest control formula and that
also can be used to dust pets with as well).
Ms. Bishop only had one veterinarian receipt
from 2013 for Beatrice, and one from 2018 for Hailey.
Ms. Bishop could not find the others, and was too
upset. However, Animal Care and Control has records
of recent pet vaccinations as Ms. Bishop had purchased
tags from them. Attorney Fox and Sergeant Moulton
looked over the evidence Ms. Bishop had brought and
talked among themselves. Ms. Bishop was crying at
this time, too upset over her dog Beatrice and what
had happened to her. The court asked Ms. Bishop if
she needed to go outside and get a break. The court
attempted to provide Ms. Bishop tissues, but she did
not want their tissues.
Attorney Fox made a slight effort to determine if
Ms. Bishop could have her pets back, and she reviewed
income with Ms. Bishop. There would be enough to
take adequate care of them, but the court interrupted

App.55a

any chance of this. Ms. Bishop went on to say how
she was going to take an out of state employment
contract, which she provided evidence of. Attorney
Fox began to argue with Ms. Bishop on the additional
items required for the contract. Attorney Fox then
went on to say “no . . . you won’t”, in a nefarious and
bitter manner regarding Ms. Bishop’s future plans.
Attorney Fox and Sergeant Moulton smile, similar to
the evil smile of the animal care and control veterinar­
ian. The court then announced that Attorney Fox had
questions for Ms. Bishop.
At this point, Attorney Fox turned on her tape
recorder for 75 minutes, and she and Sergeant Moulton
can be heard whispering over the tape. Sergeant
Moulton seems to be holding the tape. Attorney Fox
asked why Ms. Bishop took Hailey to the vet in
February 2018, and Ms. Bishop explained that Hailey
felt hot, she had a fever. The vet diagnosed her with
a respiratory infection. Attorney Fox demanded to
know why Hailey was not isolated. However, there
were no instructions to do this.
Attorney Fox asked why Bea did not go to the
veterinarian. However, after she told Ms. Bishop
that Beatrice had died and then informed Ms. Bishop
of her plans to obtain a money judgment greater
than $10,000.00 Ms. Bishop could not locate more
recent vet records for Beatrice. Attorney Fox was
informed that Ms. Bishop had holistic medications
that were working well. There were times Ms. Bishop
was out of the holistic medications due to inability to
afford them, but this was not more than 2 weeks at
any time. When Ms. Bishop’s pets were seized, these
medications were not taken with the pets. Ms. Bishop
mentioned these medications to Det. Hansen when

App.56a

she was at Ms. Bishop’s house on the search warrant.
Det. Hansen she told Ms. Bishop that she does not
tell her what to put in her reports.
Attorney Fox then asked about Beatrice’s hair
loss and whether it was getting worse or better. Ms.
Bishop explained that Beatrice had ongoing problems
with hair loss, and Ms. Bishop had to keep up with it
by applying Richards shampoo (holistic) and also
applying diatomaceous earth in addition to flea topicals.
Ms. Bishop did give her medication for deworming,
however it was outdated although it did provide a
small effect. Ms. Bishop pointed out that financial
conditions had not been good, and that she had just
received her first social security check, which would
now help her greatly in better pet care.
Ms. Bishop stated to Attorney Fox and the court
at least several times that she was not perfect, and
pleaded for her pets to be returned. Sergeant Moulton
stated that Ms. Bishop was supposed to make home
repairs, and that is why he gave Ms. Bishop his number
and “she didn’t do anything”. Ms. Bishop pointed out
that the social security payments had just been initi­
ated, and the April payment was delayed and when
Ms. Bishop received the security payment she made
the repairs that he was talking about. Ms. Bishop
showed evidence of the repairs and did not see the
added cost of materials list from Home Depot on the
evidence list.
Attorney Fox went on to talk about Chewy and
that he was “covered with fleas”. Yet she could not show
a flea, or a picture of a flea. She could not provide
evidence of anemia that is indicative of a severe flea
infestation. Nor could she provide any lab results to
back up what she was alleging.

App.57a

Chewy is a lap dog that was constantly sitting
with Ms. Bishop. Attorney Fox then asked Ms. Bishop
how often Ms. Bishop is home with the pets, inferring
that she had abandoned them. Attorney Fox smiled.
She then stated she had no further questions.
The court asked Ms. Bishop if she had anything
more to say. Ms. Bishop told the court she loves her
animals and was there to get them back. The court
stated it was awarding custody of the animals to the
county but was giving the birds back because the court
did not hear any evidence about the birds. Attorney
Fox stated the birds were in bad living conditions.
Ms. Bishop was panicked, and asked if her animals
would be auctioned off. They stated it would be a few
weeks. Attorney Fox exchanged a hateful look with
Ms. Bishop, as if to tell her not to appeal.
Attorney Fox then went on to state: “Your honor,
we want to be awarded the judgement for ten thousand
dollars.” The court gladly awarded the judgment.
Attorney Fox then asked, ‘Tour honor, we don’t want
her to have any more animals” and the court awarded
this as well, telling Ms. Bishop she cannot have any
more pets in Palm Beach County. The judge informed
Ms. Bishop that if she does, she will be arrested.
Attorney Fox wanted to make this a nationwide
ruling, and the court told her the court only has
jurisdiction in Palm Beach County. In awarding the
birds back to Ms. Bishop however, Ms. Bishop was to
have Animal Care and Control visits four times a
year to monitor the birds. Ms. Bishop told the court
Animal Care and Control was never coming into Ms.
Bishop’s house again.

App.58a

The judge then looked at Attorney Fox and
stated, “Oh, she is abandoning the birds.” Ms. Bishop
corrected the court and let them know it was a surren­
der, because the average Animal Care and Control
officer (which the room was full of) is between 180 to
250 pounds; and it did not seem logical to have two
Animal Care and Control officers with a total weight
of 450 pounds to monitor 3 finches every 4 months
who most likely did not weigh one ounce total.
D.

Final Judgment

On May 21, 2018, the county court judge rendered
a Final Judgment. (R. 41). The trial court recited the
history of the proceedings, including the seizure of the
animals and the alleged poor condition of the animals
at that time. (R. 36-37). The trial court found that Ms.
Bishop’s home was in a state of disrepair, and also
cited the testimony of Detective Hansen that Ms.
Bishop’s home lacked running water. (R. 37). The court
found that Ms. Bishop failed to have the animals
treated by a veterinarian and failed to take certain
basic actions that would have cost her very little but
would have prevented the animals from suffering. (R.
37-38).
The trial court in the Final Judgment:
(1) found that Ms. Bishop failed to provide the
dogs and cats in her possession with proper
and reasonable care, and that she was unfit
and unable to care for them;
(2) awarded permanent custody of the animals
to the County;
(3) enjoined Ms. Bishop from future possession
or custody of any animal without written

App.59a

application to, and approval of, the court;
and
(4) ordered Ms. Bishop to pay the County
$10,404.28 in costs pursuant to section
828.073(4)(c)(2) for the costs incurred to care
for the animals.
(R. 37-38).
Ms. Bishop filed the Notice of Appeal on May 21,
2018. (R. 40). Ms. Bishop filed an Emergency Motion
to Stay on July 11, 2018.
SUMMARY OF THE ARGUMENT
The trial court erred in finding Ms. Bishop failed
to provide reasonable care, awarding custody of her
animals to the County, and awarding the County a
judgment where Ms. Bishop was deprived of due
process in the hearing and the process.
The trial court erred in awarding the County a
judgment for its expenses where the trial court’s find­
ing that Ms. Bishop was unable or unfit to adequately
care for the animals was erroneous. The award of ex­
penses to the County in the instant case should not
stand where supported by an erroneous finding. The
trial court’s conclusion that Ms. Bishop was unable or
unfit to adequately care for the animals was erroneous
for the reasons explained herein. It is unjust, and
constitutes fundamental error, to allow the County to
receive an award of expenses based upon its unlaw­
ful seizure.
The trial court abused its discretion in denying
Ms. Bishop’s Motion For Continuance of the hearing.
Ms. Bishop did not cause the need for a continuance.

App.60a

The denial of a continuance caused great prejudice
and injustice to Ms. Bishop and the grant of a one-week
continuance would have caused little or no prejudice
to the County.
This Court should reverse and remand.
STANDARD OF REVIEW
Issue I: This Court should review the trial court’s
grant of the County’s petition to seize Appellant’s
animals de novo as an issue of law.
Issue II: This Court should review the trial court’s
award of a judgment for expenses to the County de
novo as an issue of law where the judgment is
unsupported because the County’s removal of Ms.
Bishop’s animals was involuntary and unjust. Pet Fair,
Inc. v. Humane Society of Greater Miami, 583 So. 2d
407 (Fla. 3d DCA 1991).
Issue III: Generally, the decision whether or not
to grant a motion for continuance is within the discre­
tion of the trial court. See Strand v Escambia County,
992 So. 2d 150, 154 (Fla. 2008); Cargile-Schrage v.
Schrage, 908 So. 2d 528, 529 (Fla. 4th DCA 2005).
ARGUMENT
I.

The Trial Court Erred in Finding Ms. Bishop
Failed to Provide Reasonable Care, Awarding Cus­
tody of Her Animals to the County, and Awarding
the County a Judgment Where Ms. Bishop was
Deprived of Due Process in the Hearing

The artistic symbol of the law is often depicted
as Lady Justice, with a set of scales suspending from
one hand to measure the support of a case, and its

App.61a
opposition. The scales represent a weighing of the
evidence, and these scales lack a foundation in order
to signify that evidence should stand on its own. Lastly,
Lady Justice has often been depicted wearing a blind­
fold. This blindfold is to represent impartiality, and
the ideal that justice will be applied fairly regardless
of standing, power, and wealth. Here, Ms. Bishop was
deprived of due process symbolized by Lady Justice
in the hearing and in the process whereby the County
removed her animals.
Law
The Fourth Amendment applies to section 828.073:
Section 828.073 provides for the removal of
neglected or mistreated animals and the
eventual transfer of custody to a Humane
Society if the owner is deemed unable or unfit
to adequately provide for them. See Fla.
Stat. §§ 828.073(l)(a) & (4)(c)2 (1997). The
statute further provides for the enjoinment
of the owner from further possession or cus­
tody of other animals if warranted. See Fla.
Stat. § 828.073(4)(c)4. Accordingly, because
section 828.073 contemplates the loss of an
unfit owner’s right to possession or custody
of his or her animal due to the neglect or mis­
treatment of that animal, we find that an
action brought pursuant to this section con­
stitutes a forfeiture action and is protected by
the Fourth Amendment.
Brinkley v. County of Flagler, 769 So. 2d 468, 471
(Fla. 5th DCA 2000).
A weighing of the evidence would translate into
both parties having the ability to submit evidence.

App.62a

But much of Ms. Bishop’s evidence was suppressed
regarding the repairs to her dwelling, the background of
the pet sitter who did not show up at the hearing, the
background of the animal care and control officer
who seized Ms. Bishop’s pets, and a signed contract
showing Ms. Bishop’s future income in addition to
her present income of $1,620.00 monthly at the time
of the hearing.
A weighing of the evidence was tilted heavily more
towards the Appellee, as the trial court erroneously
overruled Ms. Bishop’s evidentiary objections. Appellee
presented pictures from 2007 that the Appellee mixed
in with pictures of April 2018, thereby providing the
illusion of more than 30 cats, when Ms. Bishop had 7
cats seized by animal care and control. Ms. Bishop’s
objection to these old photos being presented as new
evidence was overruled by the trial court. Ms. Bishop’s
objected to more than $10,000.00 in charges by Animal
Care and Control as there was no itemized statement
and nothing to compare these charged money damages
to; this objection was overruled. Ms. Bishop’s objec­
tion to a court order placed nine months prior was
overruled. Ms. Bishop’s objection was placed regarding
the submission of confidential water records as there
was not any way to know at the time whether this
confidential information can be submitted or not; Ms.
Bishop objected to the specialty cardiac visit as there
was nothing to compare the visit to, but this was
overruled by the Court.
This Hearing was not impartial as symbolized
by the blindfold Lady Justice wears. Impartiality would
not permit one party to tape record another without
their knowledge or consent in the courtroom. However,
the trial court allowed the Appellee to audio record

App.63a

Ms. Bishop’s testimony for over 75 minutes, with the
court asking leading questions for the sole purpose of
Ms. Bishop incriminating herself, while maintaining
almost constant eye contact with the Appellee during
the audio recording. The court and the Appellee are
well-known to each other, contributing to the severe
bias of this Hearing.
As can be ascertained by the events described
above, due process was severely lacking in this Hear­
ing. The trial court did not inform Ms. Bishop of her
right to have a tape recording of the Hearing, and yet
permitted the opposing counsel to audio record more
than 75 minutes of the Hearing. Should the opposite
have occurred (Ms. Bishop taping as opposed to oppos­
ing counsel taping), the court would have certainly
taken note.
The sword that Lady Justice carries signifies that
the law is final and swift, as in placing Ms. Bishop’s
pets in the custody of Animal Care and Control with­
out acknowledging her ability to take over their care,
and then placing Ms. Bishop’s pets in a 122-degree
inferno where several died.
The court painted a picture of Ms. Bishop as a
lazy pet owner, when in fact the court did not acknowl­
edge the perseverance required to locate a financially
secure position. The court stated in its judgment that
Ms. Bishop had not worked in 2 years, but the court
did not mention how Ms. Bishop had done extensive
volunteering with no reimbursement (other than a
social security pension which began in March of 2018)
in order to gain skills for her upcoming position as
evidenced by the signed contract.

App.64a

The court took extensive testimony regarding
Ms. Bishop’s water shut off but did not acknowledge
the fact that Ms. Bishop had obtained non-traditional
sources of water for Ms. Bishop’s pets and residence.
The pets were seized based on false testimony to
a criminal court by Adam Moulton in order to gain
access to Ms. Bishop’s residence and seize Ms. Bishop’s
pets. The search warrant states there were 30 cats
which is not valid, 4 dogs which is not valid, and 4
birds which is not valid. The search warrant stated
that 6 months earlier there were more than 50 cats
in Ms. Bishop’s residence, which contradicts what
Adam Moulton wrote in his animal care and control
reports, and these facts were greatly exaggerated by
the malicious intent of the animal care officer and
his attorney.
The Search Warrant was issued Ex Parte with
no input from Ms. Bishop, the owner of the pets that
were seized. The search warrant did not describe
how the pet sitter had abandoned her job after being
paid and did not return. The search warrant does not
describe how the pet sitter contacted Animal Care
and Control more than one week after she took the
position; she made contact with this agency in retalia­
tion because she was reported to the agency for her
work habit and concealment of her background. The
search warrant mentions none of this, and the civil
court further suppressed these important facts, pre­
cluding justice.
The Warrant violated Amendment IV of the Bill
of Rights, which ensures that a United States citizen
has the right to be secure in persons, houses, papers
and effects against unreasonable searches and seizures,
shall not be violated and no warrants shall issue but

App.65a

upon probable cause supported by Oath or Affirmation
and particularly describing the place to be searched
and the person or things to be searched.
Adam Moulton described animals in distress,
when in fact only Beatrice suffered from a chronic
condition being treated with LungGold and Heartworm
formula to keep her breathing easy and comfortable.
Adam Moulton denied he was willing to work with
Ms. Bishop in the return of her pets, although Ms.
Bishop has this on text, and initially was not going to
take her pets, although he was advised to do so by a
telephone call to the opposing counsel shortly after
his arrival to Ms. Bishop’s residence on April 13,
2018. Adam Moulton then claimed Beatrice was
wheezing, which he does not have a tape recording
of, and changes his initial decision to work with Ms.
Bishop in the return of her pets.
Beatrice was comfortable in her pet bed the
morning Adam Moulton showed up at Ms. Bishop’s
residence to take the pets. Beatrice had just finished
her biggest meal of the day which was breakfast, and
was sleeping soundly when Moulton arrived to take
her from her home.
Effects in Amendment IV of the Bill of Rights
extends to pets who can be termed effects; the issu­
ance of a search warrant deemed this Appellant’s
liberties less secure causing demoralization, humilia­
tion, and terrifying the pets that were seized. Further­
more this Search Warrant alleges animal cruelty and
unlawful containment which is invalid.
This also violates Amendment V of the Constitu­
tion of the United States where this Search attempted
to place Ms. Bishop as a defendant to be a witness

App.66a

against one’s self when one has the constitutional right
to not incriminate one’s self; and authorized law
enforcement (who had guns whereas Ms. Bishop was
unarmed) to go from neighbor to neighbor in Ms.
Bishop’s neighborhood, photographing her pets, the
interior of her home, searching through her desk and
papers and her property seeking incriminating evi­
dence, and then stating she was “manipulative”;
Ms. Bishop was stalked, harassed, demeaned and
humiliated by Animal Care and Control of Palm Beach
County over the course of eleven years. In October
2017, Ms. Bishop was given a complete copy of all
documentation that Animal Care and Control has
ever recorded with respect to Ms. Bishop and pets
(dating back from 4/12/2007) and there were numerous
and many untruths and shocking inaccuracies. As of
late (4/1/2018), Ms. Bishop’s residence was documented
as “abandoned” and “strewn with garbage” which is
invalid. Any “history” that Animal Care and Control
alleges is of their own accord because the Agency
itself has a history of being outside of Ms. Bishop’s
property on many occasions, sitting in their trucks
“observing” and “documenting”.
The Agency has contacted Ms. Bishop’s family
members and neighbors, as well as Code Enforcement,
and more recently a pet sitting agency, either to collect
or offer derogatory and incriminating evidence regard­
ing Ms. Bishop. Living here in the United States, the
above is an atrocity to humanity; including the issuance
of the Search Warrant and Seizure. With the initia­
tion of the court Hearing, there was no charge of
animal cruelty; there has been no conviction of animal
cruelty; Appellant here is not capable of animal cruelty.

App.67a

On April 12, 2018 Petitioners, and Palm Beach
County Animal Care and Control obtained a search
warrant through malicious procurement as evidenced
by the number of pets listed on affidavit/search warrant
which did not correlate to the number of pets in the
home.
Appellee as above seized pets and obtained evi­
dence through such method, thereby ensuring and
sealing that due process was omitted based on the
Amendments of the Constitution of the United States,
specifically:
Amendment IV. The right of the people to be secure
in their houses, papers, and effects, against unreason­
able searches and seizures shall not be violated and
on Warrant shall issue upon probable cause supported
by Oath or affirmation, and particularly describing the
place to be searched and the person or things to be
seized. This Amendment makes no reference to false
affidavits.
Amendment V. No person shall be held to answer
for a capitol or otherwise infamous crime, unless on
presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject to the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against oneself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use, without
just compensation. This Hearing was for the Appellee
and by the Appellees, rendering any Due Process
null and void.

App.68a

Amendment VI. In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which
district shall have been previously ascertained by
law, and be informed of the nature and cause of the
accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses
in his favor; and to have the assistance of Counsel for
one’s defense. Legal protections of a court room setting
are lacking. In fact, the court permitted opposing
council to audio record 75 minutes of testimony in an
attempt to gain favor in a criminal court, without
informing Ms. Bishop, without Ms. Bishop’s knowledge
or consent to the audio recording.
Amendment VII. Excessive bail shall not be
required, nor excessive fines imposed, nor cruel or
unusual punishment inflicted. It is believed that
from the process of Search and Seizure beginning on
April 13, 2018 and going forward there has been a
blatant disregard of this Amendment.
Amendment IX. The enumeration in the Constitu­
tion of certain rights, shall not be construed to deny
or disparage others retained by the people. This will
include all rights not listed extending also to Ms.
Bishop’s pets and does not imply these rights can be
violated.
Prior to the malicious procurement of seizure of
Ms. Bishop’s pets and in July 2017 the Agency
attempted to levy fines and put obstacles in Ms.
Bishop’s path by contacting Code Enforcement in the
hopes of possibly declaring Ms. Bishop’s property
condemned due to “refuse” or “odor”. It is possible the
intent would have been to force Ms. Bishop to leave

App.69a

her property under Code Enforcement authority. Ms.
Bishop’s property has most recently been cited as
“strewn with garbage” when she did not have a shed
and shed items were placed neatly on her back side­
walk. The intent here was possibly to portray Ms.
Bishop as unable to care for herself and in that event
Mental Health Services would need to be contacted;
most likely this would involve an in-depth assess­
ment with exorbitant fees which is billable; and if not
paid a lien could always be attached to the property
here.
The above is not uncommon, and much more
common in cases of the elderly.
There are also fines, fees, and court costs involved
here in what Appellant believes is an illegal search and
seizure; as a matter of fact, insurmountable barriers
were placed (as evidenced by the veterinary cardi­
ology visit) due to the high cost of per diem exacted
by the Agency for exorbitant veterinary fees. Specialty
examinations by veterinary cardiologists involve spe­
cialty equipment that on average has a cost between
$45,000.00 and $66,000.00 to purchase. In Palm
Beach County, the average specialty visit is $500.00,
excluding the average specialty cardiology examination
which is approximately $350.00. Veterinary cardio­
logists accept a substantial amount of cash prior to
specialty visit, do not accept checks, and will accept
credit cards or Americare, a form of credit/insurance
for a cardiac examination. This translates into a
violation of Amendment VIII of the United States
Constitution referencing exorbitant fees to be paid to
release the pets, had the court issued a release of
pets back to Ms. Bishop, the Appellant. In lay terms,
this is called extortion.

App.70a

In view of the circumstances and submitted evi­
dence, and although not law in the state of Florida,
Ms. Bishop asked the Court to look to the State of
Washington law, where an affirmative defense (in
regard to Appellee accusation of animal cruelty/neglect
on Appellant, and Appellee petition for custody based
on veterinary cardiology telephonic testimony and
other testimony), if established by a preponderance
of the evidence by Appellant, that a veterinary and
veterinary cardiology specialty visit was not arranged
due to economic distress beyond the Appellant’s control
(Washington State Legislature, RCW 16.52.207, (4)(2)
(a), that affirmative defense is valid). In this instance,
the court ignored the Washington statute and takes a
punitive and cruel stand rather than acknowledging
the evidence and looking to this Washington statute.
23 days from the date of seizure, the Agency
transported Ms. Bishop’s pet to a veterinary cardiologist
where her pet’s condition changed as evidenced by
the specialist consultation. In that event, it is believed
that because of the 23-day lapse without any loving
owner contact Ms. Bishop’s pet’s condition changed
due to mistreatment following the seizure, which
placed enormous physical and emotional stress on
Ms. Bishop’s pet. The opposing counsel concealed the
fact that Ms. Bishop’s pets went to a facility with no
air conditioning, causing daily temperatures to rise
greater than 122 degrees, hastening the death of Ms.
Bishop’s dog. It can only be imagined what Ms.
Bishop’s pet felt to again be thrown into a container,
put into a truck and taken to a specialty visit where
she knows no one and her pet mother is not present.
She was then subjected to more testing, and most
likely sedation although this was denied; with this

App.71a

kind of testing Ms. Bishop’s pet was probably terrified.
Pets should and do have their family members pre­
sent when sophisticated testing as Appellee mentions
is performed.
The stress of impoundment was too much for Ms.
Bishop’s pets. It is common knowledge that the
seizure of animals can result in injury and death by the
agency who claims to be rescuing. Amendment VI of the
United States Constitution was completely disregarded
in this instance. It is also common knowledge that
once pets are seized they are subjected to disease if
not outright abuse or death at the hands of animal
care and control.
Ms. Bishop was aware of the intentional infliction
of emotional distress her pets were experiencing as
Ms. Bishop experienced it almost daily herself From
initial Search and Seizure, or receiving a phone call
from Animal Care and Control that cats have been
trapped in the neighborhood and do they belong to
Ms. Bishop, to a refusal from the Agency to let Ms.
Bishop know how Ms. Bishop’s pets are doing, or
mail from the Criminal/Civil Court representing the
Agency, to a Hearing where Appellant here is pre­
sumed guilty until proven innocent; and unlikely as
evidenced by Appellee labeling, case heard in a private
setting within the control of Animal Care and Control,
and with referenced Agency acting as Judge, jury,
and executioner.
This is not Due Process under the Amendments
of the United States Constitution cited. The year 2017
saw an increase in animal confiscation and seizures.
In reality most pets are not returned home, and Ms.
Bishop’s pets were either destroyed, lost or sold for
profit by Animal Care and Control.

App.72a

Ms. Bishop’s pets were seized and subjected to
very severe physical and emotional stress for 35 days
up to time of Hearing, and there was an unrestrained
and autocratic use of authority by Animal Care and
Control where they think they are above the law,
and not of the law. In countries such as China, the
above is a reality and a living nightmare and in the
United States Appellant and pets are experiencing
the same.
Although the United States Constitution, specifi­
cally Amendment V (Self-Incrimination, Double Jeop­
ardy, Due Process) is to ensure no depravation of life,
liberty, or property without due process of law and
nor shall private property be taken for public use,
without just compensation, it is felt that Due Process
is lacking, hence the writing of this Appeal.
On appeal I am not asking for a new Hearing,
and am asking for all surviving animals to be returned
back to me, including the birds. This was an in-duress
surrender and included Ms. Bishop’s 3 finches (as of
the present, 45% of Ms. Bishop’s pets have been killed,
others auctioned or adopted off)
[sic] asking for Ms. Bishop’s antique bird cage
with antique cover that was stolen from Ms. Bishop’s
house (under the guise of a search warrant) to be
returned; this includes all items inside the antique
bird cage, such as food and water cups and driftwood
perches that were given to me as a gift;
In their search warrant raid, animal care and con­
trol broke furniture in Ms. Bishop’s house, one antique
chair cracked at the bottom from a person standing
on the chair, request fair market value replacement
as the court would award.

App.73a

Asking for Ms. Bishop’s rights as a pet owner to
be restored without threat of arrest, as I believe this
to be unconstitutional to inform me whether I can have
pets on my/ Ms. Bishop’s property or not;
Asking for the ten thousand dollar judgment to
be reversed; it is unclear how several of Ms. Bishop’s
pets went from very good condition to terrible condi­
tions in the space of one week and required extensive
treatments, unless animal care and control is desperate
for a ten thousand dollar judgment.
It does not make sense, other than the fact that
Animal Care and Control is a desperate and greedy
agency, in need of repairs and most probably will use
the judgment for its own selfish ends;
Asking that the label of “animal cruelty hearing”
be changed to “animal custody hearing”. Opposing
council Fox assigned this to be an animal cruelty
hearing however I have not been convicted of animal
cruelty. This lawyer is not a prosecutor, she does not
assign charges, and therefore the appropriate designa­
tion of this hearing should be assigned as “animal
custody hearing” and not “animal cruelty hearing”.
In summary, and according to section 828.03:
(6) If the evidence indicates a lack of proper
and reasonable care of the animal, the burden
is on the owner to demonstrate by clear and
convincing evidence that he or she is able
and fit to have custody of and adequately
provide for the animal.
This burden was met by demonstrating Ms.
Bishop’s past financial distress and the improvements
that I made in Ms. Bishop’s residence subsequent to

App.74a

the hearing and as evidenced by the receipts; the
court refused to consider the home repairs made in
spite of letters and receipts produced; the court
refused to acknowledge evidence of vaccines and tags
on Abbie and Chewie, refused to acknowledge veteri­
nary receipts for Hailey; the court and opposing
council mocked the fact that I would be taking a new
position as evidenced by a signed contract. The court
and the opposing council do not have a crystal ball as
to the outcome of this contract and stated they “didn’t
think so” regarding Ms. Bishop’s impending move.
The court did not consider it took me five months to
receive a pension which would have been adequate
until Ms. Bishop’s new position started.
In view of the above I am asking the Appeals
Court to overturn this lower court ruling in its
entirety and to return Ms. Bishop’s pets back to me,
their rightful owner.
II.

The Trial Court Erred in Awarding the County a
Judgment for Its Expenses Where the Trial
Court’s Finding That Ms. Bishop Was Unable or
Unfit to Adequately Care for the Animals Was
Erroneous

The trial court erred in awarding the County a
judgment for its expenses where the trial court’s find­
ing that Ms. Bishop was unable or unfit to adequately
care for the animals was erroneous.
In Pet Fair, Inc. v. Humane Society of Greater
Miami, 583 So. 2d 407, 408 (Fla. 3d DCA 1991), the
trial court actually found that Pet Fair was able to
adequately care for the animals that had been seized.
However, section 828.073(4)(a)(l) of the statute
provided that the pet owner essentially must then

App.75a

pay to get possession of its animals back. Pet Fair,
Inc, 583 So. 2d at 408^ n.l. The owner elected not to
get its animals back and the DCA held that the judg­
ment for expenses was not based on any sustainable
grounds where the owner elected not to buy back its
property and the pets had been wrongly taken in the
first place. Id. at 408. The DCA stated that “the
award of a judgment which has no legal foundation—
when, in other words, the plaintiff has recovered upon
a non-existent right—constitutes fundamental error
which we are required to notice and correct.” Id. at
409.
Similarly, the trial court’s award of expenses to
the County in the instant case should not stand
where supported by an erroneous finding. The trial
court’s conclusion that Ms. Bishop was unable or
unfit to adequately care for the animals was erroneous
for the reasons explained above. It is unjust, and con­
stitutes fundamental error, to allow the County to
receive an award of expenses based upon its unlawful
seizure.
This Court should reverse the Final Judgment’s
award of expenses to the County.
III. The Trial Court Abused Its Discretion in Denying
Ms. Bishop’s Motion for Continuance of the
Hearing Where Ms. Bishop Did Not Cause the
Need for a Continuance, the Denial Caused
Injustice to Ms. Bishop in the Presentation of
Her Case, and a Continuance Would Not Have
Prejudiced the County
The trial court abused its discretion in denying
Ms. Bishop’s Motion For Continuance of the hearing.
Ms. Bishop did not cause the need for a continuance.

App.76a

The denial of a continuance caused great prejudice
and injustice to Ms. Bishop and the grant of a oneweek continuance would have caused little or no pre­
judice to the County.
The Fourth DCA has recognized the relevant
considerations in evaluating a party’s request for a
continuance:
In considering whether a trial court abused
its discretion in failing to continue a hearing,
we consider “whether the denial of the con­
tinuance creates an injustice for the movant;
whether the cause of the request for con­
tinuance was unforeseeable by the movant
and not the result of dilatory practices; and
whether the opposing party would suffer
any prejudice or inconvenience as the result
of a continuance.”
Stusch v. Jiruska, 188 So. 3d 874, 878 (Fla. 4th DCA
2016) (quoting Ryan v. Ryan, 927 So. 2d 109, 111 (Fla.
4th DCA 2006)).
Florida appellate courts have reversed the denial
of a motion for continuance in situations such as where
a party sought the continuance in order to obtain
new counsel. See Rice v. NITV, LLC, 19 So. 3d 1095
(Fla. 2d DCA 2009). The Fourth DCA has also reversed
the denial of a motion for continuance where the
request was based on a lack of preparation and dis­
covery that was not the fault of the movant.
In Fleming v. Fleming, 710 So. 2d 601, 602 (Fla.
4th DCA 1998), the final hearing in a dissolution of
marriage proceeding was reset on February 28, 1996
due to confusion over the scope of the proceeding.
The former wife’s attorney was disbarred on August

App.77a

29, 1996, approximately three months prior to the
scheduled trial. Fleming, 710 So. 2d at 602. The
former wife obtained a new attorney who filed a
motion for continuance one month prior to the trial.
Id. The motion stated that the previous attorney had
not conducted proper discovery and that a continuance
was necessary to cure the discovery defects and
properly prepare for trial. Id. The trial court denied
the motion and proceeded with the final hearing. Id.
On appeal, the Fourth DCA considered the three
factors described in Stusch above. The Fourth DCA
found that the situation caused an injustice to the
former wife regarding the former husband’s financial
records that so diminished her ability to prepare her
case that the trial court had erred in denying the
continuance. Id. See also Stusch, 188 So. 3d at 877878 (reversing and stressing that father who lived out of
country was entitled to due process and fundamental
fairness where trial court failed to continue contempt
hearing despite father’s letter expressing desire to
appear by phone due to a medical condition that pre­
vented him from flying).
The factors mentioned above weigh in Ms. Bishop’s
favor in this case. Ms. Bishop, a pro se litigant,
requested an additional week in order to adequately
present her case and defend against the untrue allega­
tions contained in the County’s Petition. (R. 21). Ms.
Bishop filed the Motion to Reschedule Hearing several
weeks in advance of the scheduled hearing, and not at
the last minute. (R. 2l). The denial of this reasonable
and modest request for continuance caused injustice
to Ms. Bishop because she could not adequately pre­
pare her case for hearing. The cause of the request
was unforeseeable and the record does not show that

App.78a

it was the result of any dilatory practices by Ms.
Bishop. Finally, the County undoubtedly would not
have been prejudiced by the grant of Ms. Bishop’s
Motion For Continuance where the request sought
only an additional week.
Notably, the trial court’s “Order Denying Defend­
ant’s Motion to Continue” simply states that Ms.
Bishop “failed to provide good cause for why contin­
uance is being sought or should be granted.” (R. 22).
The trial court failed to evaluate the factors discussed
in Fleming and find that a continuance would have
caused prejudice to the County. Again, a modest oneweek continuance in favor of a pro se litigant clearly
would not have resulted in prejudice to the County.
The trial court’s order denying Ms. Bishop’s request
for a continuance was an abuse of discretion under
the circumstances of this case.
This Court should reverse the denial of Ms.
Bishop’s request for a continuance, and remand for a
new final hearing.
CONCLUSION
The trial court made the errors described above
as a result of The County of Palm Beach and Palm
Beach County Animal Care and Control’s failure to
cooperate and comply with the rules of discovery,
while simultaneously pushing forward with its attempt
to obtain summary judgment.
WHEREFORE Appellant, KAREN BISHOP,
respectfully requests that this Court reverse the
Final Judgment on appeal and remand for the reasons
set forth above.

App.79a

Respectfully submitted,

/s/ Karel Bishop__________________
710 Hampshire, Apt. #1
Holbrook, AZ 86025
canyonforest@yahoo.com
Prepared With Assistance of Counsel

